August 2009
Report No. AUD-09-016


Material Loss Review of The Community
Bank, Loganville, Georgia




             AUDIT REPORT
                                        Report No. AUD-09-016                                                                         August 2009

                                        Material Loss Review of The Community Bank,
                                        Loganville, Georgia
Federal Deposit Insurance Corporation
                                        Audit Results
Why We Did The
                                        Causes of Failure and Material Loss – Community’s management implemented a business strategy
Audit                                   centered on asset growth, primarily through concentrations in ADC loans in its market area, and funded
                                        through wholesale funding sources, including brokered deposits. Community’s asset and funding
On November 21, 2008, the Georgia
Department of Banking and Finance       strategies resulted in an increased risk profile for the bank. However, Community management did not
(DBF), closed The Community             establish and implement sound risk management practices and controls to mitigate this risk. For
Bank (Community) and named the          example, examinations identified weaknesses in loan underwriting and credit administration, recognition
FDIC as receiver. On                    of problem assets, the methodology for computing the allowance for loan and lease losses (ALLL), and
December 15, 2008, the FDIC             liquidity planning. As a result, Community was unprepared and unable to effectively manage the risk to
notified the OIG that Community’s       its operations in a declining economic environment. Deterioration in Community’s loan portfolio eroded
total assets at closing were            earnings and capital and, in turn, the availability of wholesale funding sources. Ultimately, the bank
$653.1 million, with a material loss    became significantly undercapitalized and was unable to satisfy its liquidity requirements, leading to its
to the Deposit Insurance Fund (DIF)
                                        failure.
estimated at $218.3 million. As
required by section 38(k) of the
                                        Assessment of FDIC Supervision and PCA Implementation – Beginning February 2002 through
Federal Deposit Insurance (FDI)
Act, the Office of Inspector General    September 2008, the FDIC and DBF provided supervisory oversight of Community, including through
(OIG) conducted a material loss         six risk management examinations, two visitations, and offsite monitoring. Community received
review of the failure of Community.     composite ratings of 2 from 2002-2006 with the exception of the 2003 examination when it was
                                        downgraded to a 3, indicating increasing risk. At the November 2007 examination, the composite rating
The audit objectives were to            was downgraded to 4, indicating unsafe and unsound practices or conditions and a distinct possibility of
(1) determine the causes of the         failure if such conditions and practices were not satisfactorily addressed and resolved. As a result of the
financial institution’s failure and     September 2008 targeted visitation, the composite and all component ratings were downgraded to a 5,
resulting material loss to the DIF      indicating extremely unsafe and unsound practices or conditions, critically deficient performance,
and (2) evaluate the FDIC’s
                                        inadequate risk management practices, and great supervisory concern.
supervision of the institution,
including implementation of the
                                        In addition to providing composite and component ratings for each Report of Examination (ROE), the
Prompt Corrective Action (PCA)
provisions of section 38 of the FDI     FDIC took other supervisory actions, including making recommendations for improvement in each ROE;
Act.                                    working with the DBF to convince Community’s management to agree to adopt a Bank Board
                                        Resolution after the 2003 examination to address underwriting and administration deficiencies; and, in
Background                              conjunction with the DBF, issuing a Cease and Desist Order on July 1, 2008 to address examiner
                                        concerns, which included ineffective supervision of asset quality by Community’s board and
Community was a state-chartered         management, asset quality that negatively affected capital and liquidity, an ineffective loan review
nonmember bank insured by the           process, and an inadequate ALLL.
FDIC on October 5, 1946.
Community was headquartered in          With respect to PCA, the FDIC issued a letter to Community in May 2008, stating that, based on the
Loganville, Georgia, and had three      bank’s March 31, 2008 financial information, the bank was being downgraded to the PCA category of
other branches in surrounding           Adequately Capitalized and, therefore, could no longer accept, renew, or roll over any brokered deposits
counties. Community was wholly          unless it obtained a waiver from the FDIC. On November 17, 2008, the FDIC used its authority under
owned by Triangle Financial Group,      the PCA provisions of the FDI Act to issue a PCA Directive when Community became Significantly
Inc., a one-bank holding company.       Undercapitalized, and DBF closed the bank 4 days later.
The bank provided traditional
banking services within its             We concluded that the FDIC could have exercised greater supervisory concern as part of the 2006
marketplace.
                                        examination regarding calculation of the ALLL and controls over ADC loan concentrations and helped
Community’s loan portfolio largely
                                        ensure earlier supervisory action as a result of the 2007 examination to address the critical problems that
consisted of commercial real estate     led to the bank’s failure.
loans (CRE), with a significant
concentration in land acquisition,      The FDIC OIG plans to issue a series of summary reports on material loss reviews and will make
development, and construction           appropriate recommendations related to the failure of Community and other FDIC-supervised banks at
(ADC) loans, many of which were         that time.
funded with brokered deposits and
other potentially volatile sources of   Management Response
funding. Community’s loan
portfolio grew over 135 percent         On July 29, 2009, the Division of Supervision and Consumer Protection (DSC) provided a written
between December 2003 and               response to the draft report. DSC did not comment on the OIG’s conclusions regarding the causes of
September 2008, with total loans        failure and material loss or on the OIG’s assessment of the FDIC’s supervision. However, DSC stated
peaking at over $500 million as of
                                        that the FDIC should take immediate supervisory action when an institution rated 3, 4, or 5 fails to
September 2008. Throughout this
almost 5-year period, Community’s       implement a plan to stabilize or reduce its risk exposure and limit growth. DSC indicated that on
ADC loans averaged over                 March 3, 2009, it issued related guidance entitled, The Use of Volatile or Special Funding Sources by
70 percent of its loan portfolio.       Financial Institutions That are in a Weakened Condition, to all FDIC-supervised institutions.

 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                              Page


BACKGROUND                                                              2

CAUSES OF FAILURE AND MATERIAL LOSS                                     3
  ADC Loan Concentrations                                               4
  Use of Wholesale Funding                                              7
  Weak Risk Management Practices                                        8
      Dominant Bank Official                                            8
      Loan Underwriting and Credit Administration                       8
      Recognition of Problem Assets                                     9
      Allowance for Loan and Lease Losses                              10
      Contingency Liquidity Planning                                   11

ASSESSMENT OF FDIC SUPERVISION                                         12
  Historical Snapshot of Supervision                                   12
  OIG Assessment of FDIC Supervision                                   15
      Greater Supervisory Concern Warranted at the 2006 Examination    16
      More Timely Supervisory Action Warranted Based on the 2007       16
      Examination

IMPLEMENTATION OF PROMPT CORRECTIVE ACTION                             18

CORPORATION COMMENTS AND OIG EVALUATION                                19

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                21
  2. GLOSSARY OF TERMS                                                 24
  3. CORPORATION COMMENTS                                              25
  4. ACRONYMS IN THE REPORT                                            26


TABLES
  1. Financial Condition of Community                                   2
  2. Community’s Adverse Loan Classifications                           4
  3. ADC Loans as a Percentage of Average Loans – Compared to Peer      4


FIGURES
  1. ADC Loans as a Percentage of Total Capital                         6
  2. Net Non-Core Funding Dependence – Compared to Peer                 7
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     August 3, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of The Community Bank, Loganville,
                                          Georgia (Report No. AUD-09-016)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of The
Community Bank (Community), Loganville, Georgia. On November 21, 2008, the
Georgia Department of Banking and Finance (DBF) closed the institution and named the
FDIC as receiver. On December 15, 2008, the FDIC notified the OIG that Community’s
total assets at closing were $653.1 million and the material loss to the Deposit Insurance
Fund (DIF) was $218.3 million. As of July 17, 2009, the estimated loss to the DIF
increased to $247 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act, section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of terms, and Appendix 4 contains a list of acronyms
used in the report.
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Community’s failure and the FDIC’s
    efforts to ensure Community’s management operated the bank in a safe and sound
    manner. The FDIC OIG plans to issue a series of summary reports on our observations
    on the major causes, trends, and common characteristics of financial institution failures
    resulting in a material loss to the DIF. Recommendations in the summary reports will
    address the FDIC’s supervision of the institutions, including implementation of the PCA
    provisions of section 38.


BACKGROUND

    Community was a state-chartered nonmember bank, established on October 5, 1946 by
    the DBF and insured by the FDIC on the same day. Community, which was
    headquartered in Loganville, Georgia:

        •   had three branches in Georgia;

        •   was a wholly-owned subsidiary of Triangle Financial Group, Inc., a one-bank
            holding company;

        •   provided traditional banking activities within its marketplace;

        •   specialized in commercial lending, with concentrations in commercial real estate
            (CRE) and acquisition, development, and construction (ADC) loans; and

        •   used brokered deposits, Internet deposits, Federal Home Loan Bank (FHLB)
            borrowings, and loan participations to fund asset growth.

    Selected details on Community’s financial condition, as of September 2008, and for the
    5 preceding calendar years follow in Table 1.

    Table 1: Financial Condition of Community
                                           Sept-08         Dec-07     Dec-06     Dec-05     Dec-04      Dec-03
    Total Assets ($000s)                    $634,901       $601,715   $476,117   $391,315   $310,444   $251,126
    Total Deposits ($000s)                  $603,733       $539,246   $418,438   $343,399   $265,585   $212,645
    Total Loans ($000s)                     $505,755       $491,161   $410,420   $343,769   $276,053   $215,471
     Loan Growth Rate                        -3.24%         18.83%     19.48%     24.55%     28.13%     33.67%
    Net income (Loss) ($000s)               (26,757)         2,962     10,027      8,424      6,770      4,687
    Loan Mix (% of Loans):
    All Loans Secured by Real Estate          98%            98%        97%        97%        96%       94%
     ADC                                    79.85%         78.44%     76.19%     75.05%      73.07%    68.63%
     CRE - Nonfarm/nonresidential            9.35%         9.79%      11.64%     12.32%      10.82%    11.18%
     Multifamily Residential Real Estate     1.89%          2.65%      1.49%      .24%        .68%      .93%
     1-4 Family Residential Real Estate      6.83%          6.92%      8.15%      9.68%      11.23%    13.56%
     Home Equity Loans                       1.71%          1.84%     1.61%       .55%        .20%      .70%



                                                       2
                                             Sept-08        Dec-07      Dec-06       Dec-05      Dec-04         Dec-03
      Other Real Estate Loans                 11.24%         12.44%      13.13%       12.56%      11.54%        12.23%
    Commercial and Industrial Loans            1.68%         1.74%       1.89%        1.94%       2.95%         3.61%
    Funding:
      Total Core Deposits ($000)                $244,073      $208,736 $181,426 $145,434 $165,347              $165,305
      Total FHLB Borrowings ($000)                   0         $1,500      $1,500        $1,500       $7,000     $7,000
      Total Brokered Deposits ($000)            $295,013      $265,545 $193,537 $161,386 $107,717               $50,860
    Examination Information                     9/29/2008 11/6/2007 5/22/2006 4/18/2005 1/12/2004              6/18/2003
    Component/Composite Ratingsa                555555/5      344434/4 122121/2 132121/2 232121/2              233222/3
                                                     b
    Adverse Classifications Ratio                              136%          37%          56%           61%       51%
    Source: Uniform Bank Performance Report (UBPR) data, Reports of Examination (ROE) and Visitation
    Report.
    a
      Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
    (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
    Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
    Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
    through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
    b
      The targeted visitation report prepared by the DBF did not include the adverse classifications ratio.



CAUSES OF FAILURE AND MATERIAL LOSS

    The failure of Community Bank and resulting material loss to the DIF occurred because
    of the bank’s rapid growth concentrated in local market ADC loans and funded with
    wholesale funding sources, including brokered deposits. The bank’s management did not
    establish and implement sound risk management practices and controls to mitigate risks
    in the loan portfolio. Weaknesses in loan underwriting and credit administration, delayed
    recognition of problem assets, and an untested methodology for computing the allowance
    for loan and lease losses (ALLL) left Community unprepared and unable to effectively
    manage the risk to its operations in a declining economic environment. Resulting
    deterioration in the loan portfolio eroded Community’s earnings and capital, which
    affected Community’s ability to secure wholesale funding. Ultimately, the bank became
    Significantly Undercapitalized and was unable to satisfy its liquidity requirements,
    leading to its failure. The resulting loss to the DIF at closing was estimated at
    $218.3 million, or 33 percent of Community’s estimated assets.

    Losses in Community’s ADC loan portfolio were the primary cause of the bank’s failure.
    Community’s loan portfolio grew over 135 percent between December 2003 and
    September 2008, with total loans peaking at over $500 million as of September 2008.
    Throughout this almost 5-year period, Community’s ADC loans averaged over 70 percent
    of its loan portfolio. Community’s growth in ADC lending was funded by brokered
    deposits and other wholesale funding. The bank had a non-core funding dependence well
    in excess of its peer institutions. Community’s use of brokered deposits grew
    480 percent from December 2003 through its closing. As of September 2008, brokered
    deposits totaled $295 million, exceeding Community’s total core deposits of
    $244 million. Losses in the ADC loan portfolio affected Community’s ability to secure
    necessary funding to continue operations.


                                                        3
      The value of Community’s loan portfolio deteriorated significantly as the Atlanta real
      estate market and overall economy slowed. Such deterioration became particularly
      evident as adversely classified loans increased from about $18 million in 2006 to about
      $62 million in 2007, as shown in Table 2, which follows.

      Table 2: Community’s Adverse Loan Classifications
                                                                 Asset Quality
                                                             (Dollars in Thousands)

                                                         Adverse Loan Classifications



        Examination                                                                           Total
            Date             Substandard         Doubtful              Loss         Adversely Classified Items
      February 2002             $2,223              0                   $55                   $2,278
      June 2003                 $8,160            $105                  $85                   $8,350
      January 2004             $19,560              0                   $80                  $19,640
      April 2005               $21,312              0                   $10                  $21,322
      May 2006                 $17,480              0                   $28                  $17,508
      November 2007            $61,803              0                  $341                  $62,144
      September 2008*          $43,508             N/A                 N/A                     N/A
     Source: FDIC and DBF ROEs for Community.
      * DBF/FDIC targeted visitation.
      N/A - Information was not included in the visitation report.



ADC Loan Concentrations

      ADC concentrations in Community’s loan portfolio, which peaked at 80 percent of
      average assets in 2008, magnified the effect of loan losses because it put the bank at risk
      in the event of an economic downturn impacting the construction market in which it was
      lending. During the period 2002 through 2007, FDIC and DBF ROEs reported
      Community’s ADC concentrations to be above 300 percent of Tier 1 Capital, reaching
      over 1,100 percent of Tier 1 Capital at the June 2003 examination and over 1,300 percent
      at the September 2008 targeted visitation. UBPR data showed that Community’s ADC
      concentrations were also high in comparison to Community’s peer group. Specifically,
      as shown in Table 3, within its peer group, Community was consistently in the 99th
      percentile of ADC loans as a percentage of average loans.

      Table 3: ADC Loans as a Percentage of Average Loans – Compared to Peer
       Period Ended              ADC Loans (%)                       Percentile Ranking (%)

          Sept-08                        80                                   99
          Dec-07                         78                                   99
          Dec-06                         76                                   99
          Dec-05                         75                                   99
          Dec-04                         73                                   99




                                                                 4
Period Ended           ADC Loans (%)                 Percentile Ranking (%)

    Dec-03                 69                                   99
    Dec-02                 70                                   99
Source: UBPRs for Community.



Community’s concentrations in ADC lending was a long-standing condition. Each ROE
from 2002 through 2006 mentioned ADC concentrations or specifically suggested that
bank management diversify its loan portfolio. For example:

    •   The February 2002 ROE states, “While the level of adversely classified assets
        remains low, management has significant concentrations of credit in residential
        acquisition, development and construction lending (749 percent of tier one
        capital) . . . .”

    •   The January 2004 ROE states, “Concentrations in the Acquisition, Development,
        and Construction (ADC) industry continue and represent 383 percent of Tier One
        Capital and management closely monitors the ADC portfolio . . . .”

    •   The May 2006 ROE states, “The bank has an industry concentration of credit in
        acquisition, development, and construction (ADC) loans . . . The ADC
        concentration totals 731 percent of Tier 1 Capital, management is encouraged to
        diversify its loan portfolio to the extent possible and continue to closely monitor
        these concentrations. . . .”

However, according to FDIC and DBF officials, Community’s response to requests to
diversify its loan portfolio was that the bank’s earnings were good and loan losses were
low. Therefore, Community’s management did not implement timely actions to address
its ADC concentration risk.

Additionally, on December 12, 2006, the FDIC, the Office of the Comptroller of the
Currency, and the Board of Governors of the Federal Reserve System jointly issued
guidance regarding concentrations in CRE entitled, Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices. The guidance acknowledges that a
concentration in CRE loans, coupled with weak loan underwriting and depressed CRE
markets, may contribute to significant loan losses.3 The guidance reminds banks that
their “. . . risk management practices and capital levels should be commensurate with the
level and nature of their CRE concentration risk.” With respect to supervisory oversight,
the guidance also states the following:



3
  Additionally, the FDIC issued Financial Institution Letter (FIL) 22-2008 on March 17, 2008, entitled,
Managing Commercial Real Estate Concentrations In a Challenging Environment, which re-emphasized
the importance of strong capital, ALLL, and loan risk management practices for state nonmember
institutions with significant CRE and construction and development loan concentrations.


                                                    5
            As part of their ongoing supervisory monitoring processes, the Agencies will use
            certain criteria to identify institutions that are potentially exposed to significant
            CRE concentration risk. An institution that has experienced rapid growth in CRE
            lending, has notable exposure to a specific type of CRE, or is approaching or
            exceeds the following supervisory criteria may be identified for further
            supervisory analysis of the level and nature of its CRE concentration risk:

                    (1) Total reported loans for construction, land development, and other
                        land represent 100 percent or more of the institution’s total capital; or

                    (2) Total commercial real estate loans as defined in this Guidance
                        represent 300 percent or more of the institution’s total capital, and the
                        outstanding balance of the institution’s commercial real estate loan
                        portfolio has increased by 50 percent of more during the prior 36
                        months.

            The Agencies will use this criteria as a preliminary step to identify institutions
            that may have CRE concentrations.

As noted in Figure 1, which follows, Community’s ADC loan concentrations continued
to grow after the guidance was issued – increasing from 589 percent to 1,338 percent of
total capital between December 2006 and September 2008. Based on the above
guidance, these concentrations may have warranted additional management attention.
Although the percentage of ADC loans to total capital as of September 2008 may have
been somewhat skewed due to the bank’s extensive losses and reduced capital level, the
bank was consistently in the 99th percentile of its peer group for this measure for a
number of years.

                         Figure 1: ADC Loans as a Percentage of Total Capital

            1600%
            1400%                                                         1,338%
            1200%
            1000%
                                                                                                    Community
    Ratio




            800%                                   720%
                           589%                                                                     Peer
            600%
            400%
                                   117%                    124%
            200%                                                                   115%
               0%
                            Dec-06                    Dec-07                 Sep-08

                                                Period End Date

Source: OIG review of UBPR reports.




                                                  6
Use of Wholesale Funding

      Another factor that contributed to Community’s failure and the material loss to the DIF
      was Community’s increasing dependence on higher-cost and more volatile wholesale
      (non-core) sources of funding, such as brokered deposits and Internet certificates of
      deposits (CD), to fund asset growth and manage its liquidity position. Non-core sources
      of funding add risk to an institution because they often become unavailable when
      institutions need them most, during a period of tightened liquidity. Liquidity represents
      the ability to fund assets and meet obligations as they become due. A key metric of the
      risks related to a bank’s liquidity management is the net non-core dependency ratio. This
      ratio indicates the degree to which the bank relies on non-core/potentially volatile
      liabilities to fund long-term earning assets. Generally, a lower ratio indicates less risk
      exposure for a bank, whereas a higher ratio reflects a reliance on funding sources that
      may not be available in times of financial stress or adverse changes in market conditions.

      As noted in Figure 2, which follows, from 2002 through 2008, Community’s reliance on
      non-core/volatile liabilities significantly exceeded its peer group average, with the
      variance becoming considerably greater in recent years. Brokered deposits grew by
      about $72 million from December 2006 to December 2007 alone, reaching a total of
      about $266 million. Further, the bank’s March 31, 2008 Call Report indicated that
      3 months later, brokered deposits increased to about $289 million, representing about
      51 percent of total deposits.

                    Figure 2: Net Non-Core Funding Dependence - Compared to Peer

                 70%
                                                                                        58%
                 60%                                             51%        55%
                 50%                                   47%

                 40%
         Ratio




                                                                                               Community
                                     30%                                                 30%
                 30%      267%                 29%                    22%         25%          Peer
                                                                21%
                 20%                            13%
                            13%       13%
                 10%
                 0%
                       Feb-02     Jun-03   Jan-04      Apr-05    May-06 Nov-07 Sept-08
                                               Examination Date

                 Source: OIG review of UBPR Reports.

      Examiners were concerned about Community’s liquidity position, noting in the
      November 2007 ROE that the bank’s liquidity was strained and that the bank was relying
      on non-core funding, with brokered deposits accounting for 49 percent of total deposits.
      Community was notified by the FDIC in May 2008 that as a result of its weakened capital
      condition, the bank could no longer accept, renew, or roll over any brokered deposits
      without a waiver from the FDIC. The bank was not able to attract sufficient core deposits


                                                          7
      to reduce its non-core funding dependency and was unable to obtain alternative sources
      of funding, which contributed to the bank’s failure. Community received a waiver
      through September 30, 2008 to continue to accept brokered deposits, but a second waiver
      application was not approved.



Weak Risk Management Practices

      In addition to rapid growth in ADC lending and substantial use of wholesale funding to
      support loan growth and manage liquidity needs, Community also exhibited several weak
      risk management practices, as described below, that contributed to its failure. As a result,
      Community did not take adequate corrective action in response to repeat examination
      findings related to loan concentrations, loan underwriting and credit administration, and
      properly classifying assets.

      Dominant Bank Official. According to examiners, one individual, who was the
      president, Chief Executive Officer (CEO), and chairman of Community’s board of
      directors (BOD), dominated the daily operations of the bank and hired family members
      for senior lending positions even though they had no prior banking/lending experience.
      Further, FDIC and DBF officials stated that the CEO showed contempt for the regulatory
      process and would not implement any examiner suggestions or recommendations unless
      the actions were required by regulation.

      Loan Underwriting and Credit Administration. Community exhibited weaknesses in
      its loan underwriting and credit administration activities. For example, in the June 2003
      ROE, examiners noted that senior management in Community failed to adequately
      supervise and monitor the loan administration area and activities of loan officers and
      other loan personnel. According to that ROE, financial information in some loan files
      was unsigned or did not accurately reflect a borrower’s net worth, which is used for
      determining the borrower’s ability to repay a loan. Further, in some loan files, there was
      no meaningful evidence of the bank’s analysis of financial statements received; in
      particular, cash flow and/or debt service analyses. The 2003 and other examinations also
      identified that Community did not always follow sound loan underwriting standards,
      including those related to (1) legal lending limits4 to individuals and (2) real estate loan-
      to-value limits. In our opinion, these weaknesses may have contributed to the decline in
      asset quality and losses in Community’s loan portfolio.

          •    Legal Lending Limit: Community did not follow a state legal lending limit
               designed to help banks avoid concentrations of lending to individual borrowers.
               Specifically, at each examination conducted in 2002 through 2004 and again in
               2007 and 2008, examiners cited Community for violation of subsection
               7-1-285(b) of the Financial Institutions Code of Georgia, which states, in part,


      4
       Senior DSC officials stated that there are no federal legal lending limits and, as a part of each FDIC
      examination, examiners check each bank’s compliance with state legal lending limits.


                                                            8
                 . . . bank shall not directly or indirectly make loans to any one person or
                 corporation that in the aggregate, exceed 15 percent of the statutory capital
                 base of the bank unless the entire amount of such loans is secured by good
                 collateral or other ample security and does not exceed 25 percent of the
                 statutory capital base.

        The November 2007 ROE states that violations of the secured lending limit were
        particularly egregious, as evidenced by loan approval forms for individual
        extensions of credit that were clearly in excess of secured lending limits. These
        concentrations of credit to individual borrowers increased Community’s risk
        profile as evidenced by the results of our review of the same large borrowing
        relationships reviewed by examiners during the September 2008 targeted
        visitation. The visitation identified a $25 million shortfall in the ALLL, of which
        about $20 million related to six individual concentrations of credit.5

    •   Real Estate Loan-to-Value Limits: Community also made loans that exceeded
        the regulatory real estate loan-to-value limits. Specifically, the May 2006 ROE
        cited Community for being in contravention of a statement of policy with regard
        to Appendix A to Part 365 of the FDIC Rules and Regulations, which establishes
        loan-to-value limit guidelines for various types of real estate to be set forth in a
        bank’s lending policies. Appendix A states, in part, that it may be appropriate in
        individual cases to originate or purchase loans with loan-to-value ratios in excess
        of the supervisory limits, based on the support provided by other credit factors.
        Appendix A also stipulates that the aggregate amount of all loans in excess of the
        supervisory loan-to-value limits should not exceed 100 percent of total capital and
        that exceptions should be reported to the institution’s BOD at least quarterly.
        Failure to report all exceptions can increase the amount of loss to an institution
        when a borrower defaults and collateral is the only source of repayment.

        Specifically, the ROE identified seven loan relationships that Community failed
        to report as exceptions to Appendix A to Part 365. The seven loans had a total
        balance of $11.1 million, which, according to the ROE, brought the aggregate
        balance of loans, with exceptions, to $35.3 million, equaling 74 percent of total
        capital. Although this percentage is below the supervisory criteria, the
        deficiencies in identifying and reporting exceptions were a supervisory concern.

Recognition of Problem Assets. Community’s management did not recognize problem
assets in a timely manner. The May 2006 and November 2007 ROEs noted that
Community’s grading system for non-consumer loans was based on a 2005 interagency
proposal of classifications of commercial credit exposures; however, the proposal was
ultimately not adopted by the regulatory agencies. At the beginning of the November
2007 examination, the bank rated loans of about $35.1 million as marginal, $5.2 million
as weak, and $7.0 million as default. According to the November 2007 ROE, when
Community management updated its loan grading system, about $74.0 million in loans

5
 The bank had been previously cited for violations of the legal lending limit in one or more ROEs from
2002 through 2007 in relation to these six individual concentrations.


                                                    9
was rated weak or default – a significant increase over the previous classifications.
Earlier recognition of problem assets by Community’s management may have led to
earlier corrective action by the bank.

The 2006 ROE noted that previously classified loans remained in the bank but under
different borrowers’ names, including the limited liability corporations created by
Community’s holding company. Further, the 2007 ROE noted that the bank had taken in
over $30 million in bank-owned real estate since the prior examination and that over
95 percent of the reduction in the bank’s owned real estate since the 2006 examination
had been sold to existing customers, with financing provided by the bank, often with
significant concessions in terms of loan fees, interest rates, down payments, and
frequency of interest payments. Some of the borrowers may not have qualified for credit
under other circumstances, which could have resulted in repeat property foreclosures. In
our opinion, these practices could have created the appearance that loan losses at the bank
were low. Moreover, selling properties to borrowers who may not be creditworthy may
have further delayed Community’s recognition of problem assets.

Allowance for Loan and Lease Losses. Community’s methodology for determining its
ALLL did not follow interagency policy. Specifically, on December 13, 2006, the FDIC
issued FIL-105-2006, which distributed the Interagency Policy Statement on the
Allowance for Loan and Lease Losses (Policy Statement). The Policy Statement
indicated that each institution must analyze the collectibility of its loans and maintain an
ALLL at a level that is appropriate and determined to be in accordance with Generally
Accepted Accounting Principles (GAAP).6 An appropriate ALLL covers estimated loan
losses on individually evaluated loans that are determined to be impaired as well as
estimated loan losses inherent in the remainder of the loan and lease portfolio.

In the 2003, 2006, and 2007 ROEs, examiners recommended either an increase in
Community’s ALLL or improvements in the ALLL methodology. Specifically:

    •   The 2003 ROE states that the ALLL was deficient by approximately $1.3 million
        based on the adversely classified and criticized loans identified in the examination
        and the bank’s methodology for determining ALLL adequacy. The examiners
        told management to ensure that the bank’s ALLL was sufficient by the next
        Consolidated Report of Condition and Income (Call Report) date.

    •   The 2006 ROE states that management should consider adverse classifications
        identified by the external loan review and regulatory examinations to help
        determine ALLL adequacy in future calculations, in accordance with bank policy.



6
 The Policy Statement reiterates key concepts and requirements pertaining to the ALLL included in the
GAAP and existing regulatory guidance. In addition, the policy describes the nature and purpose of the
ALLL; the responsibilities of BODs, management, and examiners; factors to be considered in the
estimation of the ALLL; and the objectives and elements of an effective loan review system, including a
sound loan grading system.


                                                   10
    •   During the course of the 2007 examination, the DBF required bank management
        to conduct an ALLL analysis to conform to the guidance in FIL-105-2006. As a
        result, the bank had to increase the ALLL by $3.2 million.

Further, a July 2008 Cease and Desist Order (C&D) required the bank to review the
adequacy of the ALLL and establish a comprehensive policy for determining the
adequacy of the allowance. However, the September 2008 targeted visitation to review
large borrowing relationships identified a shortfall in the ALLL of at least $25 million,
which reduced capital and led to the bank being deemed Significantly Undercapitalized
for PCA purposes.

Contingency Liquidity Planning. Community did not implement sound liquidity risk
management controls that included a comprehensive contingency liquidity plan (CLP).7
As a result, when Community’s liquidity position became severely critical in 2008, bank
management was ineffective in obtaining sufficient liquidity for the institution.
Examiners noted in the 2002-2007 ROEs and the 2004 and 2008 visitation reports that
management kept liquidity levels low.

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), CLPs should be in force and include strategies for handling
liquidity crises and procedures for addressing cash-flow shortfalls in emergency
situations. The manual also states that financial institutions should have an adequate CLP
in place to manage and monitor liquidity risk, ensure that an appropriate amount of liquid
assets is maintained, measure and project funding requirements during various scenarios,
and manage access to funding sources.

By the 2007 examination, Community continued to increase its reliance on brokered
deposits for funding and experienced a significant decline in asset quality, two early
warning indicators that should have prompted Community’s management that there was a
need for a comprehensive CLP. Bank management reviewed and revised its liquidity
policy in response to the July 2008 C&D. However, bank management was not able to
fully implement the revised policy, because bank management was unsuccessful in
identifying capital investors. During the September 2008 visitation, examiners concluded
that the bank understated the initial $26 million in additional capital needed to maintain
operations, given the required increase of at least $25 million for the ALLL and the
unidentified losses that remained in the loan portfolio.

Prior to Community’s failure, the FDIC issued additional guidance related to liquidity
risk and the CLP. The FDIC’s Liquidity Risk Management guidance, dated August 26,
2008, urged financial institution BODs to establish a formal CLP that identifies
quantitative liquidity risk guidelines. The guidance also states that CLPs should identify
the institution’s liquidity risk profile and the types of stress events, including, but not
limited to, deterioration in asset quality; becoming less than Well Capitalized; the need to
fund unplanned asset growth; loss of access to market funding sources; and the impact of

7
 The FDIC uses the terms CLP, liquidity contingency plan, and contingency funding plan interchangeably.
For purposes of this report, we use CLP.


                                                  11
      negative press coverage. The guidance also reiterates the need to address in the CLP
      many of the elements that Community’s CLP did not include such as: (1) an adequate
      system of internal controls that ensures an independent review, (2) a method of
      computing the bank’s cost of funds, (3) establishing a process for measuring and
      monitoring liquidity, and (4) tax planning.

      The 2007 ROE noted increased concerns about Community’s liquidity position.
      Community’s liquidity was downgraded to a 3 rating, which is considered marginally
      adequate, and the ROE states that management relied heavily on brokered deposits for
      funding. The ROE also states that Community attempted to attract core deposits in the
      fourth quarter of 2007, but that effort met with limited success. Further, bank
      management allowed one line of credit to lapse, while another bank reduced
      Community’s federal funds line of credit from $10 million to $2.5 million, thereby
      negatively affecting Community’s liquidity management options. In an attempt to
      address liquidity issues, the bank submitted a brokered deposit waiver request to the
      FDIC and was approved to accept brokered deposits and to renew such deposits maturing
      between July 1, 2008 and September 30, 2008.

      In September 2008, the DBF and FDIC conducted a joint visitation at Community. The
      visitation concluded that the bank would become insolvent because it was unable to meet
      liquidity demands based on asset quality problems, even though Community took initial
      steps to increase its liquidity levels and was continuing to obtain deposits through
      Internet deposit listing services. Ultimately, the FDIC did not approve Community’s
      second brokered deposit waiver request based on the results of the visitation. The
      examination results and supervisory activities involving Community’s liquidity needs
      highlight the importance of contingency liquidity planning.


ASSESSMENT OF FDIC SUPERVISION

      Over the life of Community, the FDIC and DBF provided supervisory oversight in many
      ways, including risk management examinations, visitations, and offsite monitoring.
      Overall, the FDIC drew bank management attention to critical matters that contributed to
      the failure; however, the FDIC could have exercised greater supervisory concern
      regarding ADC loan concentrations in the 2006 examination and taken supervisory action
      prior to the completion of the 2007 examination to help prevent the bank’s failure and/or
      potentially reduced the loss to the DIF.


Historical Snapshot of Supervision

      The FDIC and DBF performed regular examinations of Community, conducting six
      examinations and two visitations from February 2002 through September 2008.
      Community received composite CAMELS ratings of 2 from the 2002-2006 examinations,
      with the exception of the 2003 examination when it was downgraded to 3, indicating
      increasing risk. At the November 2007 examination, the composite rating was


                                                 12
downgraded to 4, indicating unsafe and unsound practices or conditions and a distinct
possibility of failure if such conditions and practices were not satisfactorily addressed and
resolved. As a result of the September 2008 targeted visitation, the composite and
component ratings were downgraded to a 5, indicating extremely unsafe and unsound
practices or conditions, critically deficient performance, inadequate risk management
practices, and great supervisory concern.

At each FDIC examination, the FDIC made recommendations for improvements,
including: revising or amending the bank’s loan policy, correcting internal control
deficiencies, and revising the funds management policy. In addition, the FDIC made
suggestions to improve the bank’s operations which included: diversifying the loan
portfolio, continuing to closely monitor the ADC concentrations; and reconciling the
bank’s internal loan grading system to the one used by regulators.

As a result of the 2003 examination, Community’s management agreed to adopt a Bank
Board Resolution (BBR), which included: implementing procedures to correct loan
underwriting and administration deficiencies, reducing assets classified substandard and
doubtful, and correcting all violations of laws and regulations.

According to the FDIC, on March 3, 2008, DSC issued its offsite review list (ORL) based
on the Bank’s December 31, 2007 Call Report data. An FDIC Case Manager reviewed
the Call Report data and noted, in an Offsite Review report, dated March 31, 2008, that
the ORL flagged Community as having a 100-percent probability of downgrade to a
composite 5 rating and that:

       The State Authority commenced an examination of the subject institution on
       November 6, 2007, with preliminary ratings of 2-4-4-3-3-3/4 assigned . . . The
       State report remains outstanding pending determination of an appropriate ALLL
       level. The state has yet to determine the form of any administrative action that
       will be pursued in this matter.

On May 23, 2008, the FDIC notified Community that, based on its March 31, 2008 Call
Report, the bank had fallen from the Well Capitalized PCA category to the Adequately
Capitalized category and, therefore, the bank could no longer accept, renew, or roll over
any brokered deposits unless it obtained a waiver from the FDIC as stated in the PCA-
related provisions in Part 325 of the FDIC Rules and Regulations. The bank submitted a
waiver application and was approved to accept brokered deposits and to renew such
deposits maturing between July 1, 2008 and September 30, 2008. The waiver stated:

       Given the bank’s reliance on wholesale funding and the volume of brokered
       deposits maturing during the next 90 day period, approval of this waiver will be
       critical to the bank’s survival over that period…. The goal of the waiver is to
       allow for an orderly reduction while the bank continues to address this and other
       significant problems.




                                             13
According to the FDIC, bank management reduced the dollar volume of brokered
deposits per a reduction schedule submitted with its brokered deposit waiver application;
however, the bank’s total brokered deposits and non-core funding dependence increased,
and peaked in September 2008. Community filed a second brokered deposit waiver
application in September 2008 to cover brokered deposits maturing during the fourth
quarter of 2008. The FDIC held the request, pending the preliminary findings of the
September joint DBF/FDIC visitation and, based on the results of the visitation, did not
approve the waiver application.

In June 2008, the DBF issued the ROE documenting the results of its November 2007
examination. In the ROE, the DBF downgraded the bank to a composite 4 because the
bank’s condition had significantly deteriorated due to management’s continued reliance
on rising real estate values as collateral to protect the bank from losses rather than the
borrower’s ability to pay, coupled with management’s failure to diversify the bank’s loan
portfolio. The DBF concluded that the bank was exposed to substantial losses with the
dramatic decline in the local housing market. The ROE also stated that Community’s
BOD had not adequately identified, measured, monitored, and controlled the risks of the
bank as evidenced by: (1) the excessive number of violations of law and contraventions
of statements of policy, (2) the escalating level of nonperforming assets, (3) the high
dependence on non-core funding, (4) insufficient earnings to sustain bank operations,
(5) significant degree of interest rate risk, and (6) a deficient capital level. The level of
adversely classified items had increased approximately 470 percent from the prior
examination. Also, examiners stated that management was still unreceptive to
suggestions to diversify the loan portfolio in light of the high concentration levels.

As a result of the November 2007 examination, the DBF, in consultation with the FDIC,
issued a C&D on July 1, 2008 to address examiner concerns. Those concerns included,
but were not limited to, ineffective supervision of asset quality by Community’s BOD
and management, asset quality negatively impacting capital and liquidity, an ineffective
loan review process, and an inadequate ALLL. The C&D required Community
management to, among other things:

     •   Develop a written analysis and assessment of the bank’s management and
         staffing needs, including hiring an experienced lending officer and credit
         analyst.

     •   Develop and adopt a plan to meet the minimum capital requirements.

     •   Develop goals and strategies for improving and sustaining the earnings of the
         bank.

     •   Properly recognize adversely classified assets.

     •   Establish a plan to reduce the level of concentrations in the loan portfolio.




                                             14
           •   Extend no additional credit to any borrower who had a loan or other extension
               of credit from the bank that had been charged off or was classified, in whole or
               in part; was classified as loss or substandard; or was uncollected.

           •   Review the adequacy of the ALLL and establish a comprehensive policy for
               determining the adequacy of the allowance.

           •   Submit a revised loan policy to supervisory authorities for review that includes
               a requirement for written documentation of the borrower’s ability to repay each
               extension of credit and guidelines for obtaining and reviewing required
               collateral documentation.

      As part of the July 2008 C&D, the FDIC and DBF also required Community to report its
      liquidity position on a weekly basis.

      By the time of the FDIC/DBF targeted visitation in September 2008, the bank had further
      deteriorated due to management’s inability to recognize and address the asset quality
      problems and acquire necessary capital to sustain the bank’s operations. The visitation
      concluded that substandard loans totaled $43.5 million, while the level of noncurrent
      loans totaled $164.3 million. Noncurrent loans and bank-owned real estate (which
      totaled $54.9 million) represented 319 percent of Tier 1 Capital and the ALLL as of
      September 30, 2008. The ratio of past-due and nonaccrual loans to total loans was
      calculated at 40 percent during the visitation, with a noncurrent loans-to-total-loans ratio
      of 33 percent. Based on this information, examiners determined that the ALLL was
      underfunded by at least $25 million and that the deterioration in asset quality threatened
      the viability of the bank. As a result, examiners downgraded Community’s asset quality
      rating to a 5.

      On November 17, 2008, the FDIC notified Community that the bank was considered
      Significantly Undercapitalized under the PCA provisions of section 325 of the FDIC
      Rules and Regulations and required the bank to file a written capital restoration plan
      within 45 days. The bank failed 4 days later on November 21, 2008.


OIG Assessment of FDIC Supervision

      Based on our review, we concluded that the FDIC provided regular supervision of
      Community Bank, identified key concerns for attention by bank management, including
      the problems that led to the bank’s failure, and, together with the DBF, pursued
      enforcement action as the bank’s financial condition deteriorated prior to failure.
      However, the FDIC could have taken additional supervisory action to ensure the bank
      followed examiner recommendations as part of the 2006 examination regarding
      calculation of the ALLL and ADC loan concentrations. Such supervisory action may
      have helped to ensure earlier action to address the critical problems that led to the bank’s
      failure. Further, in hindsight, more timely supervisory action may have been warranted
      based on the results of the ongoing 2007 examination.


                                                   15
Greater Supervisory Concern Warranted at the 2006 Examination. Community did
not take adequate corrective action in response to repeat examination findings related to
loan concentrations, loan underwriting and credit administration, and properly classifying
assets. Greater emphasis by the FDIC on management’s response to supervisory
concerns was warranted during the 2006 examination, particularly in relation to
Community’s calculation of the ALLL and high concentrations in ADC loans. The FDIC
upgraded the bank’s asset quality rating from a 3 to a 2 and gave the bank a composite
2 rating in the 2006 examination (the same as 2005) but expressed concerns with the
bank’s loan portfolio and, in a confidential section of the report, suggested that the next
examination team review a larger sample of loans and that certain loans be reviewed
more closely. Overall, the report concluded that asset quality reflected modest
improvement and was marginally satisfactory, leading to the upgraded rating.

The 2006 examination indicated that adverse loan classifications had decreased but noted
that the past-due ratio more than doubled shortly after March 31, 2006. The May 2006
ROE identified concerns related to adverse classifications but did not make
recommendations in this regard. The ROE specifically noted Community management’s
attitude towards adversely classified items when examiners suggested that management
consider adverse classifications from the bank’s external loan review and regulatory
examinations to help determine ALLL adequacy. The ROE indicated that management
both disagreed with the regulatory definition of substandard and stated that bank
management knew the quality of loans better than examiners. In addition, the ROE noted
that the vice president/senior lending official asked “why the bank should care about the
credit-worthiness of the borrower since the bank has the collateral (real estate).” It
appears that these matters warranted greater concern and attention particularly given
management’s attitude toward corrective action.

Notably, the 2006 examination showed a level of ADC loan concentrations that had
increased significantly from the April 2005 examination. The ADC loan concentration
totaled 731 percent of Tier 1 Capital for funded loans and over 1,000 percent for
committed amounts. Also, the 2006 examination noted seven individual concentrations
that totaled 26 to 61 percent of Tier 1 Capital for committed amounts. The ROE
indicates that these concentration levels were high; however, oversight was adequate.
Examiners encouraged Community’s management to diversify the loan portfolio to the
extent possible and continue to closely monitor concentrations. In our opinion, greater
concern regarding the ADC concentrations, including specific recommendations to
address the need for diversification, was warranted. As noted in the 2007 examination
report, uncertainties in the market could eliminate collateral margins and expose the bank
to substantial losses.

More Timely Supervisory Action Warranted Based on the 2007 Examination. Once
the deterioration in the bank’s financial condition was noted during the November 2007
examination, more timely supervisory encouragement for corrective actions by bank
management could have been initiated commensurate with the severe decline in asset
quality, poor management oversight, and strain on liquidity. Specifically, a C&D
addressing the bank’s significant weaknesses identified during the November 2007



                                            16
examination was not implemented until July 2008. (Selected provisions contained in the
C&D were previously discussed in the “Historical Snapshot of Supervision” section of
this report.) During the approximate 8-month period from November 2007 to July 2008,
Community operated without a formal enforcement action, and its financial condition
worsened.

The following synopsis of key milestones related to the DBF’s November 2007
examination and the subsequent corrective action gives perspective to the period between
the start of the 2007 examination and the issuance of the C&D:

   •   The DBF started its examination on November 6, 2007.

   •   The DBF completed it principal fieldwork in January 2008. However, based on
       concerns related to Community’s ALLL calculation, the DBF required bank
       management to obtain new appraisals on impaired loans in order for the bank to
       re-compute its ALLL.

   •   Based on the revised loan information it received from the bank, the DBF
       completed its examination in late April 2008 and, after reviewing and processing
       the ROE, transmitted it to Community on June 3, 2008.

   •   The FDIC received the ROE on June 11, 2008.

   •   Community’s BOD signed the C&D on June 20, 2008, and the C&D became
       effective 10 days later on July 1, 2008.

We recognize the difficulty faced by the FDIC with considering an enforcement action
while the DBF’s 2007 examination was in process. However, through offsite monitoring
and communication with the DBF, the FDIC was aware of weaknesses regarding
Community’s operations and had concerns regarding the bank’s concentrations prior to
DBF’s June 2008 issuance of the 2007 ROE. With respect to offsite monitoring, the
FDIC identified Community as having increased probabilities of being downgraded in
each of the three quarterly ORLs beginning with the June 30, 2007 Call Report data (with
the March 3, 2008 ORL flagging Community as having a 100-percent probability of
downgrade to a composite 5 rating). In fact, the offsite review report completed
September 26, 2007 stated, “As of 6/30/07, the bank had a [construction and
development] concentration of approximately 574% of [Tier 1 Capital] + ALLL and an
overall [real estate] concentration of approximately 731% of [Tier 1 Capital] + ALLL.”
Also, while conducting its 2007 examination, the DBF had informed the FDIC of the
preliminary results of its work. Therefore, in hindsight, FDIC action may have been
warranted prior to the release of the 2007 ROE in June 2008. Such action could have
reduced the loss to the DIF as a result of the bank’s failure.




                                           17
IMPLEMENTATION OF PROMPT CORRECTIVE ACTION

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC Rules and Regulations implements PCA
    requirements by establishing a framework for taking prompt corrective action against
    insured nonmember banks that are not adequately capitalized.

    The FDIC and DBF evaluated Community’s capital position and assigned capital
    component ratings; included capital-related provisions in formal actions, including a PCA
    Directive, in accordance with regulatory guidelines; and provided PCA notification
    letters. On May 23, 2008, the FDIC informed Community that, based on the March 31,
    2008 Call Report, the bank reported Tier 1 Leverage Capital of 7.92 percent; Tier 1 Risk-
    Based Capital of 8.47 percent; and Total Risk-Based Capital of 9.72 percent, which
    placed the bank in the Adequately Capitalized category and, therefore, the bank could no
    longer accept, renew, or roll over any brokered deposits unless it obtained a waiver from
    the FDIC.

    The July 2008 C&D included provisions related to capital and required Community to do
    the following:

       •   Within 120 days, attain a Tier 1 Capital ratio of no less than 8 percent. The level
           of capital was to be maintained in addition to a fully funded ALLL satisfactory to
           the DBF and FDIC, as determined at subsequent examinations or visitations.

       •   Within 90 days, develop and adopt a plan to meet the minimum risk-based capital
           requirements for a Well Capitalized bank.

       •   Within 60 days, develop and adopt a plan to meet the minimum capital
           requirements set forth in the C&D.

    In response, Community submitted a plan on September 10, 2008, to meet the minimum
    capital requirements set forth in the C&D. The plan outlined potential solutions, which
    included: raising capital through institutional investors and local shareholders, selling of
    bank-owned real estate, raising additional capital, closing and/or selling branches and
    performing assets, and finding a strategic partner to acquire the bank.

    The FDIC/DBF visitation on September 29, 2008 determined that capital should be
    downgraded to a 5 because the bank was Significantly Undercapitalized, bank
    management did not appear to be successful in obtaining the required capital infusion,
    and the loss exposure in the loan portfolio was not being properly recognized by
    management.




                                                 18
    The Call Report for the bank as of September 30, 2008, reported the following ratios:

       •   Tier 1 Leverage Capital         3.71 percent
       •   Tier 1 Risk-Based Capital       4.06 percent
       •   Total Risk-Based Capital        5.39 percent

    On November 17, 2008, the FDIC issued written notification to Community of its PCA
    capital category (Significantly Undercapitalized) based on the bank’s September 30, 2008
    Call Report. The notification required submission of a written capital plan. The DBF
    closed the bank 4 days later.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health as was the case with Community. Community remained in the Well
    Capitalized PCA category until March 31, 2008, even though the bank’s financial
    condition had deteriorated significantly.


CORPORATION COMMENTS AND OIG EVALUATION

    On July 29, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 3 of this report. In its response,
    DSC did not comment on the conclusions the OIG reached in the report regarding the
    causes of failure and material loss and the assessment of the FDIC’s supervision.

    DSC’s response did reference a specific action taken as a result of the 2007 examination.
    DSC stated, “With respect to the 2007 examination and the timeliness of FDIC
    supervisory action, it is important to note that a Cease and Desist Order was issued within
    60 days of the close of the examination, which was extended because the bank failed to
    provide for an adequate ALLL with updated appraisals in accordance with FAS
    [Financial Accounting Standard] 114.” We acknowledge that the C&D was issued within
    60 days of the close of the examination. Nevertheless, we reiterate that the date of
    issuance of the C&D was about 8 months after the examination began and that FDIC
    action prior to the issuance of the 2007 ROE (and release of the C&D) may have been
    warranted and could have reduced the loss to the DIF as a result of the bank’s failure.

    The response also states that DSC should take immediate supervisory action when an
    institution rated 3, 4, or 5 fails to implement a plan to stabilize or reduce its risk exposure
    and limit growth. DSC indicated that on March 3, 2009, DSC issued guidance to all
    FDIC-supervised institutions in FIL-13-2009 entitled, The Use of Volatile or Special
    Funding Sources by Financial Institutions That are in a Weakened Condition, which
    addresses such action. Specifically, this guidance states that, for an institution that is in a
    weakened financial condition, it is even more critical that management administer the
    institution in such a way to stabilize the risk profile and strengthen the financial
    condition. Institutions rated 3, 4, or 5 are expected to limit balance sheet growth and take
    actions to improve their risk profile while they work to remedy their problems.
    Institutions rated 3, 4, or 5 that engage in material growth strategies, especially those that


                                                  19
are funded with volatile liabilities or temporarily expanded FDIC insurance or liability
guarantees pose a significant risk to the DIF and will be subject to heightened supervisory
review and enforcement.




                                            20
                                                                                     APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, on or after July 1, 1993, the Inspector General of the
      appropriate federal banking agency shall prepare a report to that agency reviewing the
      agency’s supervision of the institution. The FDI Act requires that the report be
      completed within 6 months after it becomes apparent that a material loss has been
      incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from January to June 2009 in accordance with generally accepted
      government auditing standards. However, due to the limited scope and objectives
      established for material loss reviews, which are generally applied to just one financial
      institution, it may not have been feasible to address certain aspects of the standards, as
      described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of Community’s operations from January 1,
      2002 until its failure on November 21, 2008. Our review also entailed an evaluation of
      the regulatory supervision of the institution over the same period.

      Our audit procedures did not include any observations of Community’s operations. To
      achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by FDIC and DBF
                 examiners from 2002 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Atlanta Regional Office
                       and Atlanta Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Community’s audit work papers provided by David Giddens, Certified
                       Public Accountant, in Eatonton, Georgia.




                                                    21
                                                                                     APPENDIX 1


                 •   Bank records maintained by DRR in Dallas, including information that
                     would provide insight into the bank’s failure, various annual reports, and
                     accompanying financial statements.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in the FDIC’s Atlanta Regional Office.

                 •   FDIC examiners from the DSC Atlanta Field Office who participated in
                     examinations or reviews of examinations of Community.

           •   Interviewed officials from the DBF, Atlanta, Georgia, to discuss the historical
               perspective of the institution, its examinations, state banking laws, and other
               activities regarding the state’s supervision of the bank.

      We performed the audit field work at the FDIC’s headquarters in Washington, D.C., and
      DSC regional and field offices in Atlanta, Georgia, and DRR offices in Dallas, Texas.

      Our ability to evaluate the adequacy of DSC’s supervisory efforts was limited by the lack
      of FDIC examination work papers prior to the 2006 FDIC examination. We were
      informed that prior examination work papers had been destroyed prior to the
      commencement of our review, in accordance with FDIC guidelines, and thus were no
      longer available. Regional Directors Memorandum 01-039, Guidelines for Examination
      Workpapers and Discretionary Use of Examination Documentation Modules, dated
      September 25, 2001, and the Examination Manual note that, with some exceptions, the
      retention of work papers beyond one examination for well-rated banks is generally
      discouraged. The OIG issued an audit memorandum, on May 1, 2009, to the Director,
      DSC, communicating matters related to workpaper retention.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of
      Community’s management controls pertaining to its operations as discussed in the body
      of this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings or conclusions. Our review centered on interviews, ROEs, and
      correspondence and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency


                                                    22
                                                                           APPENDIX 1


programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           23
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS

      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Bank Board          A BBR is an informal commitment, adopted by a financial institution’s BOD,
Resolution          directing the institution’s personnel to take corrective action regarding specific
                    noted deficiencies.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart B,
(PCA)               of the FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq., implements section 38, Prompt Corrective Action, of the FDI
                    Act, 12 United States Code section 1831o, by establishing a framework for
                    taking prompt supervisory actions against insured nonmember banks that are
                    less than Adequately Capitalized. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       Federal Financial Institutions Examination Council produces the report
                    quarterly, from banks’ Call Report data, for use by banking supervisors,
                    bankers, and the general public.




                                              24
                                                                                                       APPENDIX 3
                          CORPORATION COMMENTS



FDICi
Federal Deposit Insurance Corporation
55 171h Stree NW. Wasington, D.C. 202999                            Divisio of Supeisio an Consume Prolecion



                                                                      July 29. 2009



MEMORANDUM TO:                    Russell A. Rau
                                  Assistant Inspector General for Audits

FROM:                             Sandra L. Thompson
                                  Director

SUBJECT:                          Draft Audit Report Entitled, Material Loss Review of        The
                                  Community Bank, Loganville, Georgia
                                  (Assignment No. 2009-0 i 2)


Pursuant to Section 38(k) of     the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corpration's Offce of Inspector General (DIG) conducted a material        loss review of
The Community Bank (Community Bank) which failed on November 2 i, 2008. This
memorandum is the response of the Division of Supervision and Consumer Protection eDSC) to
the DIG's Draft Report received July 14,2009.

The DIG's Draft Report concludes that the FDIC and the Georgia Deparment of               Banking and
Finance (DBF) monitored and conducted timely and regular examinations of             Community Bank
and accurately diagnosed issues and prescribed corrective measures. With respect to the 2007
examination and the timeliness of FDIC supervisory action, it is important to note that a Cease
and Desist Order was issued within 60 days of  the close of the examination, which was extended
because the bank failed to provide for an adequate ALLL with updated appraisals and in
accordance with FAS 114.

We agree that in these instances the FDIC should take immediate supervisory action when an
institution rated "3", "4", or "5" fails to implement a plan to stabilize or reduce their risk
exposure and limit  their growth. On March 3, 2009, DSC issued such guidance to all FDIC-
supervised institutions in a Financial Institution Letter (FIL- I 3-2009).

Thank you for the opportunity to review and comment on the Draft Audit Report. We recognize
the threat that institutions with high risk profies, such as Community Bank, pose to the Deposit
Insurance Fund; and we continue to look for and implement improvements to our supervisory
program that focus on stabilizing an institution's risk profile and strengtening its financial
condition.




                                                   25
                                                                  APPENDIX 4
                    ACRONYMS IN THE REPORT

Acronym                                Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
BOD       Board of Directors
C&D       Cease & Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CEO       Chief Executive Officer
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DBF       Georgia Department of Banking and Finance
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
GAAP      Generally Accepted Accounting Principles
OIG       Office of Inspector General
ORL       Offsite Review List
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                    26
